USCA11 Case: 20-13871

Date Filed: 03/04/2021

Page: 1 of 3

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-13871-C
WILLIE C. WALKER,
Petitioner-Appellant,
versus
STATE OF GEORGIA,
JUDGE TOM CAMPBELL,
DBHDD,
ANTRON EVANS,
CITY OF SOUTH FULTON MUNICIPAL COURT,
Respondents-Appellees.
Appeal from the United States District Court
for the Northern District of Georgia
ORDER:
Willie C. Walker, a civil detainee, filed the present pro se 28 U.S.C. § 2254 habeas corpus
petition. Although his § 2254 petition is difficult to understand and full of irrelevant citations to
state and federal law, it appears to challenge his present involuntary civil commitment.
Mr. Walker also filed a motion for in forma pauperis (“IFP”) status before the district court.
The district court issued an order denying Mr. Walker’s § 2254 petition and motion for IFP
status. In doing so, the court noted that “[n]othing in the record indicates that [Mr. Walker] has
pursued a petition for writ of habeas corpus from the final order of civil commitment or the most
recent order modifying the civil commitment.” It also noted that there was no indication that he
otherwise had petitioned for relief in state court and that nothing in the record indicated that state

USCA11 Case: 20-13871

remedies were un

Date Filed: 03/04/2021

Page: 2 of 3

available to him or would have proven ineffective to protect his rights. Thus, the

district court found that any habeas claim that Mr. Walker attempted to raise in his § 2254 petition
was

unexhausted and that the petition was, consequently, frivolous and due to be dismissed.
Mr. Walker now moves this Court for a certificate of appealability (“COA”) and IFP status.

In order to obtain a COA, a movant must make “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). Where the district court dismissed a habeas petition
on

procedural grounds, the movant must show that reasonable jurists would debate (1) whether the

motion states a valid claim of the denial of a constitutional right, and (2) whether the district court
was correct in its procedural ruling. Slack v. McDaniel, 529 U.S. 473,484 (2000).
“Before a federal court may grant habeas reliefto a state prisoner, the prisoner must exhaust
his remedies in state court.” O’Sullivan v. Boerckel, 526 U.S. 838, 842 (1999); 28U.S.C.
§ 2254(b)(1). “An applicant shall not be deemed to have exhausted the remedies available in the
courts of the State, within the meaning of this section, if he has the right under the law of the State
to raise, by any available procedure, the question presented.” 28 U.S.C. § 2254(c).
Here, reasonable jurists would not debate the district court’s determination that any claim
Mr. Walker attempted to raise was unexhausted. See Slack, 529 U.S. at 484. Under Georgia law,
Mr. Walker had the right to raise a challenge to his involuntary civil commitment in a petition
under O.C.G.A. § 37-3-148(a) or O.C.G.A. § 17-7-131(f). See Hogan v. Nagel, 576 S.E.2d 873,
875 (Ga. 2003) (“[An individual] under an order of involuntary commitment has two parallel
judicial means by which he might secure his release on the ground that he no longer meets the
criteria for civil commitment: by a petition for writ of habeas corpus (O.C.G.A. § 37-3-148(a)) and
by petition for release under O.C.G.A. § 17-7-131(f)”). However, the record and Mr. Walker’s
§2254 petition do not contain any indication that Mr. Walker raised his challenge to his

2

■

l>

USCA11 Case: 20-13871

Date Filed: 03/04/2021

Page: 3 of 3

c

involuntary commitment in any state court proceeding. Consequently, the district court could not
have granted Mr. Walker any habeas relief he requested in connection to his involuntary
commitment because any claim he raised was unexhausted and prematurely before the district
court. See O’Sullivan, 526 U.S. at 842.
Accordingly, Mr. Walker’s motion for a COA is DENIED. Mr. Walker’s motion for IFP
status is DENIED AS MOOT.
—..—

UNITED STATES CIRCUIT JUDGE

3

—-

USCA11 Case: 20-13871

Date Filed: 05/18/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-13871-C
WILLIE C. WALKER,
Petitioner-Appellant,
versus
STATE OF GEORGIA,
JUDGE TOM CAMPBELL,
DBHDD,
ANTRON EVANS,
CITY OF SOUTH FULTON MUNICIPAL COURT,
Respondents-Appellees.
Appeal from the United States District Court
for the Northern District of Georgia
Before: JILL PRYOR and BRASHER, Circuit Judges.
BY THE COURT:
Willie C. Walker has filed a motion for reconsideration, pursuant to 11th Cir. R. 22-l(c)
and 27-2, ofthis Court’s March 4,2021, order denying his motion for acertificate of appealability
and denying as moot his motion for leave to proceed on appeal in forma pauperis. Upon review,
Mr. Walker's motion for reconsideration is DENIED because he has offered no new evidence or
arguments of merit to warrant relief.

« kV

f
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
WILLIE C. WALKER,
CIVIL ACTION NO.

Plaintiff,

l:20-CV-2373-CAP _

v.
STATE OF GEORGIA, JUDGE TOM
CAMPBELL, DBHDD, ANTRON
EVANS, and CITY OF SOUTH
FULTON MUNICIPAL COURT,
Defendants.
ORDER

The plaintiff filed the instant action pro se and requested in forma
pauperis

(“IFP”) status. After a magistrate judge granted the plaintiffs

request to proceed IFP, this court conducted a frivolity review pursuant to 28
U.S.C. § 1915(e)(2)(B). While the court was uncertain as to precisely what
type of claim the plaintiff sought to assert, i.e., a civil rights claim or a
habeas corpus claim, the court concluded that the plaintiff could not proceed
in federal court before first exhausting his state court remedies. Therefore,
the complaint was dismissed as frivolous [Doc. No. 11]. The plaintiff has now
filed a notice of appeal [Doc. No. 13] and an application for leave to appeal
IFP [Doc. No. 14].

flff- F
The petitioner’s application to proceed on appeal IFP is governed by 28
U.S.C. § 1915 and Federal Rule of Appellate Procedure 24. Section 1915(a)
provides, in relevant part:
(a)(1) Subject to subsection (b), any court of the United States
may authorize the commencement, prosecution or defense of any
suit, action or proceeding, civil or criminal, or appeal thefeiftT
without prepayment of fees or security therefor, by a person who
submits an affidavit that includes a statement of all assets such
prisoner possesses that the person is unable to pay such fees or
give security therefor. Such affidavit shall state the nature of the
action, defense or appeal and affiant's belief that the person is
entitled to redress. . . .
A review of the petitioner’s financial affidavit [Doc. No. 14] indicates
that he does not have sufficient funds to pay the filing fee for the appeal.1 28
U.S.C. § 1915(a)(3) provides, however, that an appeal may not be taken IFP if
the trial court certifies in writing that it is not taken in good faith. In the
notice of appeal [Doc. No. 13], the petitioner does not articulate his grounds
for appeal, and seems to concede that he must exhaust his state remedies
i*

before filing in this court—precisely the reason for the dismissal of this
action. Accordingly, this court finds the appeal is not taken in good faith and
therefore must DENY the application for leave to appeal IFP [Doc. No. 14]
pursuant to 28 U.S.C. § 1915(a)(3).
1 The document submitted by the plaintiff is not signed and contains very
little substantive information. The plaintiff marked nearly all blanks of the
form “N/A.”
2

. -j

fop- F
Because the plaintiff indicated in his complaint that he seeks habeas
corpus relief, the court finds that to the extent this action is governed by the
certificate of appeal requirements at 28 U.S.C. § 2253(c), the plaintiff is not
entitled to a certificate because he has failed to “shojw] that reasonable
jurists could debate whether (or, for that matter, agree' that) the petition
should have been resolved in a different manner or that the issues presented
were adequate to deserve encouragement to proceed further.” Miller-El v.
Cockrell, 537 U.S. 322, 336 (2003) (quoting Slack v. McDaniel, 529 U.S. 473,
484 (2000).
Further requests for a certificate of appealability or to proceed IFP on
appeal should be directed, on motion, to the United States Court of Appeals
for the Eleventh Circuit.
SO ORDERED this 15th day of October, 2020.

IbI Charles A. Pannell. Jr.
CHARLES A. PANNELL, JR.
United States District Judge

3

r»r>)

3j) WC.So&aUyrt(dtltc C Idaiker

o-s.

C

\ a.

'JPfL. (-'autyj~'L^

)C*sc-4>,.l05C^&[ I
c«5cMo. 11 $014.12.14
Ck&cjlU /odr^d
FILED IN OFFlTpT^D
MAY 2 4 201 i

'f'/cc

v------ -------------------

Pfc

clSC,

^ hilin 0!

DEPUTY CLERKSUPeRIOR COURT
- .. - FULrTQNCOUNTY BA

-fa-ke- noifc-e 4-hod- 4V,
_____

6/H'l. ,*«(W<

.! n -fA c 0-

UofHlCn <[)\ Srfiri

cnh&VC cz? hci$
p*Di.5.*/t/cr/ ^ ar~h

IxL

o!naf ^tdc-i we! %cLm&l%4. J)
\S>

hOlCsLA erf] Ccrrr&chcdi.,

I !Z-‘ tyM^-C'.ldcdker
h'a

cjoi £iCc^>~t~

I

Pl.X>gig

h^HiL Clerk <^/.c'c:
•J«*i Copie^ doJoe &oqcrJ
\a>STr'cf /hf-u jir, r J. '

mornfU Cop
1 iy61,
1% ^0/j

C dismissed

®

isss/kdrM
C/aZf^
/' &yy &z.

imrMsJ

Case 1:11 -cv-00174-CAP Document 14

r. % M

Filed 05/13/11

Page 1 of 1

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

fffp. A

WILLIE C. WALKER,
Petitioner,

CIVIL ACTION FILE

vs.
NO. 1:11-cv-174-CAP
STATE OF GEORGIA,
Respondent.

J_u D G M E N T
This petition for a writ of habeas corpus having come before the
Charles A. Panned, Jr., United States District Judge, for consideration,
having been considered and the court having rendered its opinion
Ordered and Adjudged that the petition for a

court, Honorable
and the petition

it is

writ of habeas corpus be, and the

same hereby is and dismissed.
Dated at Atlanta, Georgia, this 13th day of May, 2011.

JAMES N. HATTEN
CLERK OF COURT
By-' s/Andrea Gee
Deputy Clerk
Prepared, Filed and Entered
in the Clerk's Office
May 13, 2011
James N. Hatten
Clerk of Court
By:_s/Andrea_Gee
Deputy Clerk

/,■

••

•x 6
IN THE SUPERIOR COURT OF FULTON COUNTY
-—----STATE OF GEORGIA

l_JW isloiilj

STATE OF GEORGIA
V.

INDICTMENT NO*AOS$M§P^*0mr}

Willie Walker

JUDGEMENT AND ORDER IN PLEA OF
MENTAL INCOMPETENCY TO STAND TRIAL
TJe defendant in the above-styled case, while represented by Counsel, has waived a jury trial.
The Court sitting as judge and jury trying the issue formed upon the Defendant’s Plea of Mental
Incompetency to Stand Trial, finds as follows:
Counsel for Defendant has presented to the Court sufficient psychiatric evidence to show that
Detendantisincapable of understanding the nature of the charges against him/frCT, nor of
understanding the object of the proceedings against him/her, and is incapable of rendering his/her
attorney proper assistance m his/her defense. Counsel moves that his/her plea be sustained by
me Court and that the Defendant be placed in the custody of the Department of Human
Resources (DHR).
After consideration of all the medical evidence and the attached psychiatric report, the Court, the
Court finds m favor of the Defendant’s Plea of Mental Incompetency to Stand Trial.
THEREFORE, the Court hereby ORDERS that the Defendant be confined in a State facility for
the mentally ill. Within ninety (90) days after the Department of Human Resources has received
custody of the Defendant, the Defendant shall be evaluated and a diagnosis made as to whether
he/she is presently competent to stand trial or whether there is substantial probability that the
Defendant will at some future time attain mental competency to stand trial in the said case.
IS FURTHER ORDERED that the Department of Human Resources shall report their
findings and the reasons therefore to this Court.
H IS THE FURTHER ORDER of this Court that the Sheriff of Fulton County shall transport
and deliver said Defendant to the State hospital for the mentally ill, to be selected by the
Department of Human Resources, along with two (2) copies of this Order.

ent rendered in

This the

5

day of

,20//*.

John<l0oger
JudgejSuperio^Court of
Fulton County, Georgia

C^7

(Z

